Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   BIOSPECIMEN RESEARCH:
   MEETING BASIC HUMAN
    SUBJECTS PROTECTION
     REQUIREMENTS AND
      COMMUNICATING
    INFORMATIONAL RISKS



                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                        November 2013
                        OEI-01-11-00520
EXECUTIVE SUMMARY – BIOSPECIMEN RESEARCH: MEETING BASIC
HUMAN SUBJECTS PROTECTION REQUIREMENTS AND COMMUNICATING
INFORMATIONAL RISKS 
OEI-01-11-00520

WHY WE DID THIS STUDY

A biobank is a repository of biospecimens—and, in some cases, associated personally
identifiable information (PII) and personal health information—to be used for research
purposes. This research must comply with Federal regulations governing human subjects
research. An institutional review board (IRB) must review and approve the research, and
the principal investigator (PI) must obtain informed consent from all potential subjects
unless the IRB waives the requirement for informed consent. In addition, informational
risks (i.e., risks related to PII or personal health information), such as a breach of privacy,
are magnified because of the long-term electronic storage of the subjects’ PII and the
potential for the biospecimens to be used in research not specified at the time of
collection. Researchers and bioethicists have identified human subjects’ potential loss of
privacy and confidentiality as a challenge to research that involves biospecimens.

HOW WE DID THIS STUDY

We reviewed 71 studies at 32 institutions that met our inclusion criteria. We assessed
relevant informed consent documents and IRB documents for compliance with certain
requirements for human subjects protections, as well as additional measures contained in
these documents to address informational risks. We also surveyed PIs and IRBs from the
institutions that conducted the research.

WHAT WE FOUND

Informed consent documents for biospecimen research contained required information on
human subjects protections, but varied in their substance and form. IRBs met basic
requirements for membership and continuing review. Some IRBs and PIs took steps to
address the informational risks of collecting biospecimens and storing them for future
research. IRBs and PIs identified challenges in conducting and overseeing research
involving biospecimens, such as determining how much information to share with human
subjects, determining how biospecimens should be stored for future use, and dealing with
the slow pace of change for regulations governing this type of research.

WHAT WE RECOMMEND

We recommend that the Office for Human Research Protections (OHRP) provide a forum
to IRBs and PIs for discussing informational risks to human subjects. OHRP concurred
with our recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................6 

Findings......................................................................................................10 

           Informed consent documents for biospecimen research contained 

           required information on human subjects protections, but varied                                            

           in their substance and form ............................................................10 

           IRBs met basic requirements for membership, initial review, and
           continuing review...........................................................................13 

           Some IRBs and PIs took steps to address the informational risks 

           associated with collecting biospecimens and storing them for                                        

           future research................................................................................14 

           IRBs and PIs identified challenges in conducting and overseeing 

           research involving biospecimens ...................................................18 

Conclusion and Recommendation ............................................................20 

           Agency Comments and Office of Inspector General Response.....22 

Appendix....................................................................................................23 

           Agency Comments.........................................................................23 

Acknowledgments......................................................................................25 

         OBJECTIVES
         For research that includes the collection of biospecimens, to determine the
         extent to which

             1.	 informed consent documents comply with human subjects 

                 protection regulations, 


             2.	 Institutional Review Boards (IRBs) comply with regulations, and

             3.	 principal investigators (PIs) and IRBs take measures to address
                 informational risks (i.e., risks related to human subjects’ personally
                 identifying information (PII) or personal health information).

         BACKGROUND
         Biospecimens, which include blood, plasma, biofluids, and tissue, are
         biological materials that are taken from human subjects enrolled in clinical
         research or that remain from a clinical procedure. Biospecimens may be
         collected and used for a specific study or stored in a biobank for specified
         or unspecified future research. When stored in a biobank, biospecimens
         may also include associated PII and personal health information.
         According to Federal regulations governing the protection of human
         subjects, research involving PII about living human beings is considered
         human subjects research. Research with biospecimens that are labeled
         with PII is also considered human subjects research. In most instances, to
         comply with Federal regulations for human subjects research, an IRB must
         first approve the research protocol and informed consent document, then
         investigators must obtain informed consent from all potential subjects
         unless an IRB has waived the requirement for informed consent.1
         Historically, human subjects in research have been exposed primarily to
         physical risks, such as an adverse reaction to an experimental drug. With
         biospecimen research, informational risks, such as a breach of privacy, are
         magnified because of the long-term electronic storage of the subjects’ PII
         and the potential for the biospecimens to be used in research not specified
         at the time of collection. Informational risks include the improper use of
         subjects’ personal health information or PII to deny health insurance, life
         insurance, or employment.2 The undesired disclosure of research results to



         1
          45 CFR § 46.109. 

         2
          The Genetic Information Nondiscrimination Act of 2008 (P.L. 110-233, 122 Stat. 881)

         prohibits employment and health care discrimination under certain conditions.


Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   1
         subjects, such as the discovery that an individual is genetically
         predisposed to a disease, is also an informational risk. Without adequate
         informed consent, subjects may not understand the potential for their
         biospecimens to be used in unspecified future research to which they may
         object.3 One such example is the case of the cancerous tissue removed
         from Henrietta Lacks over 60 years ago. Processing the tissue led to
         production of the HeLa cell line and provided genetic information,
         including the predisposition to certain diseases on the part of her
         descendants.4
         Public Responsibility in Medicine and Research (PRIM&R), an
         association of medical researchers, including private-sector experts and
         Federal officials, that promotes research ethics, has identified human
         subjects’ potential loss of privacy and confidentiality (i.e., informational
         risks) in research that uses biospecimens as a challenge to this type of
         research.5 The report also raised concerns about the oversight mechanisms
         for human subjects research, including the lack of a comprehensive
         regulatory framework that addresses biospecimen storage and use.6
         Federal Regulations and Guidance for Human Subject
         Protections
         The Public Health Service Act requires the Department of Health and
         Human Services (HHS) to establish an oversight system for all
         HHS-supported or HHS-conducted research to ensure that the rights of
         human subjects are protected.7 HHS’s Office for Human Research
         Protections (OHRP) provides clarification and guidance to researchers,
         IRBs, and institutions on complying with regulations for protecting human
         subjects while conducting HHS-supported or HHS-conducted research.8
         The regulations define “research” as “a systematic investigation, including
         research development, testing and evaluation, designed to develop or
         contribute to generalizable knowledge.”9 A human subject is a living
         individual about whom an investigator conducting research obtains


         3
           The Havasupai Tribe of Arizona successfully sued the University of Arizona for using
         tribe members’ blood samples for research on schizophrenia and depression, among other
         things, without their consent. See A. Harmon, “Indian Tribe Wins Fight to Limit
         Research of Its DNA,” The New York Times, April 21, 2010.
         4
           Rebecca Skloot, The Immortal Life of Henrietta Lacks, Crown Publishers, 2010.
         5
           PRIM&R, Human Tissue/Specimen Banking Working Group, Part 1, Assessment and

         Recommendations, March 2007, p. 16. Accessed at www.primr.org on August 7, 2013.

         6
           Ibid., p. 7.

         7
           42 U.S.C. 289(a). 

         8
           OHRP, OHRP Mission Statement. Accessed at www.hhs.gov/ohrp on August 12, 2013. 

         9
           45 CFR § 46.102(d). 


Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   2
         (1) data through intervention or interaction with the individual or
         (2) identifiable personal information.10 No current regulations address the
         unique risks associated with research that includes the collection of human
         biospecimens.
         IRBs. An IRB is a committee set up to ensure the protection of the rights
         and welfare of human subjects. Research sites must have an IRB, which
         has the authority to approve, disapprove, or recommend modifications to
         proposed research.11 Among other requirements, IRBs must have at least
         five members, and they must conduct continuing review of research at
         least annually or more frequently on the basis of an assessment of the
         research’s risk.12,13
         Informed Consent. Federal regulations require PIs to obtain informed
         consent from human subjects before they are enrolled in a study unless a
         waiver of consent has been obtained. Informed consent must be obtained
         under circumstances that provide prospective subjects the opportunity to
         consider whether or not to participate and that minimize the possibility of
         coercion or undue influence. Informed consent documents must describe
         the nature and purpose of the research; state the foreseeable risks arising
         from the study; describe the extent, if any, to which confidentiality of
         records identifying the subject will be maintained; and state that
         participation in research is voluntary.14 IRBs may require that informed
         consent documents include additional information, should the IRBs
         determine that the information would provide additional protections to the
         subjects.15
         Tiered consent and broad consent are two examples of informed consent
         models used for biospecimen research seeking consent for unspecified
         future use of subjects’ biospecimens. Tiered consent includes options for
         subjects to decline inclusion of their biospecimens in specific types of
         future research. The broad consent model simply asks subjects to consent
         to all future research.16
         The regulations allow for several exemptions from the requirements for
         informed consent and IRB review. One such exemption is for research


         10
            45 CFR § 46.102(f). 

         11
            45 CFR § 46.109(a). 

         12
            45 CFR § 46.107(a). 

         13
            45 CFR § 46.109(e). 

         14
            45 CFR § 46.116. 

         15
            45 CFR § 46.109(b). 

         16
           NCI and Office of Biorepositories and Biospecimen Research, NCI Best Practices for

         Biospecimen Resources. Accessed at www.biospecimens.cancer.gov on August 9, 2013.

Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   3
         involving previously collected information or biospecimens from which
         identifiers have been removed.17 In these instances, the research is not
         considered research on human subjects and, therefore, the requirement to
         obtain informed consent is waived.
         The Health Insurance Portability and Accountability Act (HIPAA) Privacy
         Rule. The HIPAA Privacy Rule protects the privacy of individually
         identifiable health information.18 The rule applies both in research and
         health care settings and applies to “covered entities,” including researchers
         who work within the entities.19 Researchers may meet Privacy Rule
         requirements by (1) removing PII, (2) obtaining authorization from the
         subject, or (3) obtaining a waiver from an IRB or another institutional
         board established solely to address privacy issues.20
         Certificates of Confidentiality. The Public Health Act authorizes NIH to
         grant Certificates of Confidentiality to research institutions so that they
         and their researchers may not be compelled by any court to provide any
         identifying information about an individual enrolled in a study. 21
         NIH
         NIH is the largest Federal funder of health research. Of the 27 NIH
         institutes and centers, 24 make awards that support basic and clinical
         research, research center operations, scientific training and fellowships,
         and construction projects. Fiscal year (FY) 2012 expenditures for
         extramural research awards, which funded research performed by
         non-Federal scientists using NIH money, totaled $21.5 billion.22 Some
         portion of NIH-funded research includes collecting and storing
         biospecimens, but the size of that portion is unknown.




         17
            45 CFR § 46.101(b)(4). 

         18
            Social Security Act, §§ 1171–1179, as modified by P.L. 104-191 §§ 104 and 106. 

         19
            “Covered entities” are defined as (1) health plans, (2) health care clearinghouses, and 

         (3) health care providers that electronically transmit any health information in
         transactions for which HHS has adopted billing. See 45 CFR § 160.102(a).
         20
            45 CFR §§ 164.502(d), 164.508(a)(1), 164.510, 164.512(i). 

         21
            NIH, Grants and Funding: Certificates of Confidentiality: Background Information.

         Accessed at http://grants.nih.gov/grants/policy/coc/background.htm. 

         22
            NIH, NIH Data Book – Research Grants: Funding by Institute/Center. Accessed at
         NIH.gov on March 28, 2013.

Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)    4
         Biobanks and Cancer Research at the National Cancer
         Institute
         Part of NIH, the National Cancer Institute (NCI) is the principal Federal
         agency for cancer research and training.23 As part of its responsibilities,
         NCI awards and monitors grants related to the National Cancer Program.
         In FY 2012, NCI issued over 6,000 research grants worth about
         $3.1 billion.24
         Biospecimens are commonly used in cancer research because they contain
         cellular, molecular, genetic, and chemical information that helps scientists
         understand the biology of cancer. Through this understanding, scientists
         can identify characteristics of cancer that can be targeted by a new
         generation of cancer therapies.25
         Genomics is the study of the functions and interactions of genes in a
         genome.26 The study of human genomics has led to better understanding
         of the role of genetics in cancer and the development of targeted and more
         efficient treatment. Further advances in this field depend, in part, on
         researchers’ access to genetic material stored in biobanks.27
         Recent Developments
         Reviews of IRB practices related to research have found that they fell
         short of protecting human subjects and communicating potential risks.28, 29
         In an effort to update its rules for human subjects protection to reflect
         current research practices, the Department published an advanced notice
         of proposed changes to the rules in July 2011.30 The proposed changes
         included, among other things, (1) determining a format for streamlining


         23
            NCI, NCI Mission Statement. Accessed at
         http://www.cancer.gov/aboutnci/overview/mission on October 24, 2013. 

         24
            NIH, Table #106, NIH Grants and Contracts Number of Competing and Noncompeting 

         Awards and Funding Mechanism and NIH Institutes/Centers Fiscal Years 2002–2011. 

         Accessed at www.report.nih.gov on March 1, 2012. 

         25
            NCI and Office of Biorepositories and Biospecimen Research, NCI Best Practices for
         Biospecimen Resources.
         26
            A genome is an organism’s complete set of DNA, including all of its genes. Definition
         taken from NIH.gov. Accessed on August 22, 2013. 

         27
            A.E. Guttmacher and F.S. Collins, “Genomic Medicine—A Primer.” New England 

         Journal of Medicine, 2002; 347:1512–1520, November 7, 2002. 

         28
            Institute of Medicine, The Common Rule and Continuous Improvement in Health Care:
         A Learning Health System Perspective, October 2011. Accessed at www.iom.edu on
         January 31, 2012.
         29
            OIG, IRBs: A Time for Reform, OEI-01-97-00193, June 1998. 

         30
            76 Fed. Reg. 44512–44530 (July 26, 2011). See also OHRP, OHRP Regulatory 

         Changes in ANPRM. Accessed at 

         http://www.hhs.gov/ohrp/humansubjects/anprmchangetable.html on October 28, 2013.


Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   5
         informed consent documents so that subjects providing biospecimens may
         opt in or out of future research and (2) establishing universal data-security
         measures similar to those found within HIPAA.31
         In October 2012, the Presidential Commission on the Study of Bioethical
         Issues released a report highlighting privacy concerns associated with
         whole-genome sequencing. The report emphasized the continued benefit
         of advances in genomic sequencing for society, but also raised concerns
         about privacy, the potential misuse of information, and unanticipated
         results reported to subjects from future research. Although the report
         concentrated on whole-genome sequencing, the Commission’s findings
         and recommendations were also directed more broadly at large research
         projects that use genetic data. 32
         In January 2013, a study from the Massachusetts Institute of Technology’s
         Whitehead Institute highlighted vulnerabilities with stored biospecimens
         by using publicly available data to identify previously de-identified
         subjects enrolled in a genomic sequencing study.33
         After genetic researchers mapped the genome for the HeLa cell line and
         made the information public in March 2013, the family of Henrietta Lacks
         raised concerns about its privacy.34 In August 2013, NIH responded to
         these concerns by providing the Lacks family with some control over how
         the genomic data would be used in future research. The series of events
         highlighted the need for broader policy addressing privacy of human
         subjects enrolled in research involving biospecimens, as well as that of
         their families, and the importance of communicating the potential
         commercial aspects of the research to human subjects.35

         METHODOLOGY
         Scope
         We reviewed 71 studies (at 32 institutions) that (1) either were active in
         2012 or were completed in 2011, (2) were funded by NCI extramural


         31
            76 Fed. Reg. 44515 (July 26, 2011). 

         32
            The Presidential Commission for the Study of Bioethical Issues, Privacy and Progress

         in Whole Genome Sequencing, October 2012. Accessed at http://www.bioethics.gov on

         April 23, 2013. 

         33
            M. Gymrek, A.L. McGuire, D. Golan, E. Halperin, and Y. Erlich, “Identifying Personal 

         Genomes by Surname Inference,” Science, Vol. 339, January 18, 2013.

         34
            J.J.M. Landry et al., “The Genomic and Transcriptomic Landscape of a HeLa Cell

         Line,” Genes Genomes Genetics, March 2013. Accessed at g3journal.org on August 13, 

         2013.

         35
            Carl Zimmer, “A Family Consents to a Medical Gift, 62 Years Later,” The New York 

         Times, August 7, 2013.

Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   6
         grants or cooperative agreements, (3) were human subjects research as
         defined by regulations, and (4) involved the collection of biospecimens.
         We used ClinicalTrials.Gov, an NIH-maintained registry of federally and
         privately supported clinical research studies, to identify the 71 studies in
         our review. Because information on biospecimen collection is not
         systematically gathered, we identified the clinical trials in our review
         through an optional database field indicating biospecimen retention.
         Our initial inquiry identified 86 studies, 10 of which were waived from the
         requirements for human subjects research and therefore did not have
         informed consent documents. We excluded five others that did not meet
         our inclusion criteria.
         We assessed informed consent documents and IRB documents for
         compliance with certain requirements for human subjects protections.

         Our analysis of the informed consent documents focused on the following
         four basic required elements:
                   a statement of the nature and purpose of the study;
                   a description of any reasonably foreseeable risks or discomforts to
                    the subjects;
                   a statement describing the extent, if any, to which confidentiality of
                    records identifying the subjects will be maintained; and
                   a statement that participation is voluntary.36
         Our evaluation of IRBs focused on three requirements:
                   that IRBs have at least five members,
                   that IRBs conduct initial review of research, and
                   that IRBs conduct continuing review of research at least annually
                    or more frequently on the basis of research risk.
         Data Sources and Collection
         Research Protocol and Informed Consent Documents. We requested the
         research protocol, informed consent documents, and IRB chairperson’s
         contact information from the PI of each of the 71 studies in our study
         population. We received all the protocols and informed consent
         documents that we requested.




         36
              45 CFR § 46.116.

Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   7
         IRB Documents. We requested IRB rosters, as well as documentation of
         both initial and continuing review from the IRB chairpersons overseeing
         the studies in our study population. Where institutions had multiple IRBs
         for different types of research, we reviewed only the IRB responsible for
         overseeing the study in question. We received IRB rosters from 31 of the
         32 institutions in our population, documentation of initial review from
         68 of the 71 studies in our population, and documentation of continuing
         review for 70 of the 71 studies.
         Survey of Principal Investigators. We surveyed the PIs conducting the
         studies in the population. We contacted the PIs by email and included a
         link to an online questionnaire. This questionnaire addressed PIs’ training
         on human subjects protections and on institutional policies and resources
         for collecting and storing biospecimens; the guidance that PIs have used in
         these areas; and their experiences conducting this type of research.
         Additionally, we asked about their perceptions of this type of research and
         challenges they experienced in conducting it. We sent the questionnaire to
         76 PIs for whom we had email addresses.37 Sixty PIs completed the
         questionnaire.
         Survey of IRB Chairpersons. We surveyed IRB chairpersons overseeing
         the studies in the study population. We contacted them by email and
         included a link to an online questionnaire. The questionnaire addressed
         training and guidance related to human subjects protections and the IRB
         chairpersons’ experiences overseeing research that includes collecting and
         storing biospecimens. We also asked about challenges in overseeing this
         type of research. We sent the questionnaire to 47 IRB chairpersons at the
         32 institutions in the study population. Thirty-two chairpersons from
         twenty-four unique institutions completed the questionnaire.
         Interviews With Representatives From Research Institutions. We
         interviewed PIs, IRB chairpersons, and other research personnel at two
         institutions. We chose the institutions because both are large, well-known
         cancer research institutions.
         Analysis
         We analyzed the informed consent and IRB documents to determine
         whether they met requirements for human subjects and how they
         addressed unique issues associated with this type of research, such as



         37
           At the time we sent the questionnaire, we had 76 studies in our study population. Five
         studies were eliminated at a later date because we determined that they did not meet our
         inclusion criteria.

Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   8
         informational risks, future research, and sharing research results with
         human subjects.
         Limitations
         Our ability to identify studies that met our criteria was limited by the
         extent to which ClinicalTrials.Gov included optional, self-reported data.
         We did not determine whether IRBs met the requirement for expertise.
         Instead, we described measures IRBs took to meet that requirement.
         Finally, we did not independently verify the data PIs and IRB chairpersons
         reported to us in the survey.
         Standards
         This study was conducted in accordance with the Quality Standards for
         Inspection and Evaluation issued by the Council of the Inspectors General
         on Integrity and Efficiency.




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   9
         FINDINGS
         Informed consent documents for biospecimen
         research contained required information on human
         subjects protections, but varied in their substance
         and form
         All 71 informed consent documents described the nature and purpose of
         the research, generally at the beginning of the documents. In some
         instances, the descriptions of the research appeared as bulleted text; in
         other instances, the descriptions contained additional detail (sometimes
         extending to several pages) and included scientific language. (For
         examples of the two different types, see Figure 1.)


         Figure 1: Examples describing nature and purpose of research, taken
         from two informed consent documents
         Example 1
         This research has three components:
                  • the collection of tissue samples for research purposes
                  • the use and sharing of data about you and your transplant to improve
                  outcomes
                  • permission to follow you lifelong regarding your health and well-being

         Example 2
         You are being asked to participate in a research study to look at the levels of certain 

         enzymes (proteins that are made by the body to limit or prevent changes in the 

         makeup of the body’s cells), as well as oxidative DNA damage (changes to the 

         body’s DNA when the cells are deprived of oxygen). DNA is the repository of

         hereditary characteristics such as what color of eyes a person will have. These 

         changes in proteins and DNA occur in all people over their lifetimes, but are more 

         pronounced in some people than in others. This study will measure some of these 

         changes in subjects who are considered at high risk for developing prostate cancer

         due to certain existing conditions, compared with subjects who are considered 

         healthy.



         Source: OIG analysis of informed consent documents, 2013.

         In all instances, protecting patient information and maintaining
         confidentiality appeared in clearly marked sections of the informed
         consent documents. The level of detail in some forms described steps that
         would be taken to protect participants, such as coding or encryption.
         Other forms cited HIPAA and indicated how that law applies or contained
         its relevant language. (For examples of the language on protecting
         confidentiality, see Figure 2.)




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)    10
         Figure 2: Examples of Language on Protecting Confidentiality

        Example 1
        Your specimen, information from the specimen, and your medical information will 

        be distributed to researchers at this or other institutions labeled with a unique 

        laboratory code number. Your personal identifying information will not be sent to

        other researchers. Only the Principal Investigator and their research staff will have

        access to the link between the code and your name. You will sign a separate HIPAA 

        authorization form for review of your medical records information by Tissue 

        Procurement personnel who are trained to maintain strict confidence. All 

        information obtained by [institution name] is stored and released under conditions

        designed to protect the privacy of study participants. 


        Example 2
        Your protected health information will be protected according to state and federal

        law. However, there is no guarantee that your information will remain confidential, 

        and it may be re-disclosed at some point. 


        Example 3
        Your identity will be kept as confidential as possible as required by law. Except as 

        required by law, you will not be identified by name, social security number, address, 

        telephone number, or any other direct personal identifier. Your research records may

        be disclosed outside of [institution name], but in this case, you will be identified only 

        by a unique code number. Information about the code will be kept in a secure 

        location and access limited to research study personnel.


         Source: OIG analysis of informed consent documents, 2013.

         All informed consent documents included some description of risk and
         discomfort. However, studies that included the noninvasive collection of
         biospecimens listed fewer physical risks because they simply followed the
         subjects’ health over time and did not involve additional medical
         intervention or collection of biospecimens. Other studies included
         biospecimen retrieval, such as cancerous lung tissue, that required a
         procedure for removal and had greater physical risks. Informed consent
         documents for genetic research that did not require a procedure to collect
         the biospecimens listed lower physical risks. (See Figure 3 for examples
         of informed consent documents’ descriptions of risk and discomfort.)




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)    11
           Figure 3: Examples of Language on Risks and Discomfort

           Example 1
           Some questions in the questionnaire may be sensitive. You may refuse to answer
           any questions that make you feel uncomfortable. Participants who have concerns
           after completing this questionnaire are encouraged to contact their physician or the
           study doctor.

           Example 2
           Infection and/or bleeding are always possible when the skin is broken …. About 1%
           of patients have serious problems from an internal biopsy. These problems include
           internal bleeding which may require a blood transfusion or surgery to correct, a
           collapsed lung, injury to the intestines, gallbladder or kidneys, and infection of the
           abdominal cavity. You may have an allergic reaction to the numbing medicine. This
           reaction may be mild, such as a skin rash, or you may have more severe symptoms
           like throat tightness, low blood pressure, and it may be hard to breathe. In rare
           cases, a severe reaction could cause death.

           Example 3
           The greatest risk is breach of confidentiality.


         Source: OIG analysis of informed consent documents, 2013.

         Finally, all informed consent documents stated that participation was
         voluntary. Some communicated at the beginning of the document that the
         research was voluntary. In these instances, the documents often stated that
         the subject was being asked to enroll in research and could withdraw at
         any time. In other documents, the statement that the research was
         voluntary directly followed a description of the nature and purpose of the
         research. Other informed consent documents contained a separate section
         that addressed the voluntary nature of the research. (For examples of the
         language regarding the voluntary nature of the research, see Figure 4.)
         Figure 4: Examples of Informed Consent Language Regarding Voluntary
         Nature of Research
          Example 1
          You are being asked to take part in a research study. To join the study is voluntary.
          You may refuse to join, or you may withdraw your consent to be in the study, for any
          reason.

          Example 2
          DO I HAVE TO TAKE PART IN THE STUDY?

          The choice to take part in this study or not is yours. Make your choice based on what

          we have explained to you and what you have read about the study. 

          Taking part is completely voluntary and up to you.




         Source: OIG analysis of informed consent documents, 2013.




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   12
         IRBs met basic requirements for membership, initial
         review, and continuing review
         We received 31 IRB rosters from 32 institutions in the study population,
         and all of those met the minimum requirement of 5 members. The number
         of members reached as high as 40 and averaged 17 members.
         We received documentation of initial review for 68 of the 71 studies in the
         population of continuing review for 70 of the 71 studies. All of those met
         the minimum requirement for continuing review. Twenty-six of thirty-two
         IRB chairpersons who responded to our survey reported taking additional
         measures to protect human subjects during continuing review. These
         measures include updating informed consent documents as new risks
         arose, auditing logs that document how biospecimens were shared, and
         conducting routine site visits to ensure that biospecimens were being used
         according to the IRB-approved protocol.
         IRB chairpersons who responded to our survey and those we interviewed
         provided information on how their IRBs address the requirement for
         expertise of their members. It is up to each IRB to determine its operating
         structure to ensure that members have expertise for reviewing research.
         All the chairpersons who responded to our survey said that they require
         members to receive training on human subjects protection. Some IRBs
         use subcommittees to address different types of research, such as
         biomedical research. Others seek out expertise that may be lacking within
         the IRB. For example, one IRB chairperson we interviewed told us that he
         consults with information technology (IT) staff on a case-by-case basis
         when informational risks to subjects are elevated because of storing PII,
         rather than having someone with such expertise as a permanent part of the
         committee. Another chairperson reported integrating an IT risk
         assessment as a formal part of his IRB’s review process.
         In addition, 25 of 32 IRB chairpersons who responded to our survey
         reported that their IRBs require members to attend training on
         informational risks. Six respondents said that the IRB itself provides
         educational opportunities both for IRB members and investigators on
         topics related to informational risk, as well as on administering informed
         consent. Four respondents said they developed guidance specifically for
         investigators conducting biospecimen research and IRB members
         overseeing such research. The guidance these respondents developed
         includes guidelines for conducting biospecimen and genetic research,
         conducting genome-wide association studies, and determining what to
         disclose in informed consent documents for genetic research.



Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   13
         Some IRBs and PIs took steps to address the
         informational risks of collecting biospecimens and
         storing them for future research
         IRBs and PIs both play important roles in communicating informational
         risks as the informed consent documents are developed, reviewed, and
         approved. This process starts during the initial review, when the IRB
         reviews the study protocol and informed consent document and requests
         modifications, if appropriate. Our analysis of the 68 initial review
         documents demonstrates that at times, IRBs recommended modifications
         to the informed consent documents. These modifications varied and
         included clarification on how biospecimens would be stored and used in
         the future and when it might be appropriate to contact the relatives of a
         subject diagnosed with cancer (see Figure 5).
         Figure 5: Example of IRB-Requested Modifications to Informed Consent
         During Initial Review

          Example 1
          Revise the [informed consent document] and/or protocol and Abstract to clarify
          whether agreement to donate residual tissue is an eligibility requirement or an option.
          It cannot be both.

          Example 2
          The [relevant committee] recommended that you review the consent form under
          reference, in particular the risks of genetic counseling.

         Source: OIG analysis of informed consent documents, 2013.



         Almost all IRB chairpersons—32 of 33—stated that they had required
         modifications to a research protocol to address these informational risks.
         Further, 24 of 60 PIs reported that IRBs had required changes to their
         study documents.38
         Informational risks to subjects were included in 58 of the
         71 IRB-approved informed consent documents
         Fifty-eight of the seventy-one IRB-approved informed consent documents
         described informational risks associated with biospecimen research,
         including breaches of confidentiality and the consequences and learning
         potentially sensitive results from genetic research (see Figure 6). These
         risks generally appeared within the sections of the informed consent




         38
           The term “study documents” refers to the research protocols and informed consent
         documents.

Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   14
         documents addressing nature and purpose of the research or the sections
         addressing physical risks and discomforts.

         Figure 6: Informational Risks Addressed in Informed Consent Documents
         (n=71)




                                                                         Informed consent
                                   13
                                                                         documents that did
                                                                         address informational
                                                                         risks
                                                                         Informed consent
                                                                         documents that did not
                                                                         address informational
                                                   58                    risks




         Source: OIG analysis of informed consent documents, 2013.

         The long-term storage of biospecimens and their associated data may
         heighten the risk of a breach of confidentiality. For example, a breach
         could involve unauthorized access to personal health information; loss or
         misplacement of data-storage devices, such as laptop computers; or the
         interception of private information transmitted over the Internet.
         Breaches could result in human subjects’ information being used against
         them, and 52 of the 71 informed consent documents discussed this risk.
         For example, the potential exists for genetic information to be used to
         deny health insurance or life insurance or to claim or deny paternity.
         Figure 7 shows how one IRB-approved informed consent document
         informs human subjects of this risk.




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   15
         Figure 7: Example Describing the Consequences of a Breach of
         Confidentiality


            The greatest risk of sharing your genetic information is the possible loss of your
            privacy. Although no identifiable (name, address, etc.) information will be given to
            the National Institutes of Health (NIH, the federal government agency that stores
            genetic information), the possibility exists that your genetic information may be
            taken, used for reasons outside of this project, and in the future be used to identify
            you. If your genetic information is linked back to you in the future, it may be used by
            employers and insurance agencies to discriminate against you, or by law enforcement
            to link you, or one of your family members, to a crime.

         Source: OIG analysis of informed consent documents, 2013.


         Biospecimen research also could identify sensitive results from a genetic
         test. Disclosing this information may be undesirable or upsetting to a
         human subject. An example of such a risk is learning that one has a
         genetic predisposition to Alzheimer’s disease but can do nothing to
         decrease the chances of developing it. Twenty-one of the informed
         consent documents we reviewed indicated that research results may be
         shared with subjects. Of those, 6 indicated that research results would be
         shared with the subjects unconditionally; the other 15 indicated that results
         would be shared with the subject only under certain conditions, such as the
         receiving of genetic counseling by the subject.
         In some cases, informed consent documents described legal protections
         designed to protect subjects (see Table 1). For example, 18 of the
         71 informed consent documents described certificates of confidentiality.
         These informed consent documents described potential consequences of
         releasing private information to an employer or insurer and the ways in
         which a certificate protects subjects from that risk. Similarly, 13 of the
         71 informed consent documents describe how the Genetic Information
         Nondiscrimination Act protects individuals from inappropriate use of their
         genetic information.

         In other cases, the informed consent documents disclosed how research on
         the collected biospecimens might lead to commercial products. For
         example, 37 of 71 informed consent documents addressed the potential for
         a commercial product while also stating that the subjects would not
         receive any financial benefit.




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   16
         Table 1: Informational Risks and Related Issues Addressed in Informed
         Consent Documents

         Issue Addressed                                                              Number of Informed
                                                                                      Consent Documents*

         Informational Risks (in General)                                                      58
         Specific Informational Risks
                    Breach of Confidentiality                                                              52
                    Learning Potentially Sensitive Results from Genetic Research                           21


         Possibility of a Commercial Product with No Financial Benefit for Subject             37

         Research Institution Has an NIH-Granted Certificate of Confidentiality                18

         How the Genetic Information Nondiscrimination Act Protects Subjects                   13


         *Each informed consent document may include one or more of these elements.

         Source: OIG analysis of informed consent documents, 2013.


         About two-thirds of informed consent documents provided
         human subjects with some control over how their
         biospecimens would potentially be used
         Forty-nine of the seventy-one informed consent documents allowed
         subjects to select the specific types of research in which they would like to
         participate, while opting out of other types of research. This approach,
         called tiered consent, gives human subjects a degree of control over the
         types of research for which their biospecimens are used. For example,
         tiered consent might permit one subject to opt in for cancer research but
         opt out of research on Alzheimer’s disease, while permitting another
         subject to choose to participate in all types of research. Tiered consent
         could also include a provision for a subject to indicate whether he/she
         would like to be contacted about future research. (See Figure 8 for
         examples of informed consent language under a “tiered consent”
         framework.)




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)         17
         Figure 8: Examples of Language for Tiered Informed Consent

          Example 1
          My specimens may be kept for use in research to learn about, prevent, or treat HIV.

          Yes __                No__

          My specimens may be kept for use in research to learn about, prevent, or treat other 

          health problems such as human papillomavirus (HPV) infections and anal or genital 

          cancer. 


          Yes ___               No ___

          Someone may contact me in the future to ask me to take part in more research.

          Yes ___               No ___

          Example 2
          I elect to___ or not to___ have leftover blood and tissue specimens stored in a tissue 

          bank for optional studies. 

          Participant’s initials ___

          I elect to___ or not to___ have the results of any future research disclosed to me.
          Participant’s initials ___

          I elect to___ or not to___ provide contact information on the attached page for 

          relatives to be contacted about the study. 

          Participant’s
         Source:          initials
                 OIG analysis        ___ consent documents, 2013.
                              of informed




         Source: OIG analysis of informed consent documents, 2013.




         IRBs and PIs identified challenges in conducting and
         overseeing biospecimen research
         In conducting research, PIs and IRBs must balance the competing
         demands of protecting human subjects and making scientific progress. All
         respondents seemed to recognize those competing demands. They face
         challenges in achieving that balance.
         First, PIs identified a challenge in determining the level of detail to
         provide to potential subjects about the various risks associated with
         participating in biospecimen research. Their concern was that providing
         extensive detail could deter subjects from participating. Not only can such
         an explanation be time-consuming, but it also can raise potential subjects’
         concerns about risks that they might face should they decide to participate.
         As one principal investigator stated, “[The] primary challenge is
         recruitment resulting in fewer subjects enrolled than expected. The


Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)     18
         informed consent form is long, arduous, and implies greater risk than is
         realistically present.”
         Second, storing biospecimens for future use and controlling access to them
         also presents challenges, especially for individual PIs. Of the 51 PIs who
         responded to our question as to who controls distribution of their
         biospecimens, 23 PIs said they themselves did, 18 said IRBs did, and
         4 said the institution’s research management office did. Tracking PII
         associated with the biospecimens can be handled with a simple
         spreadsheet or a sophisticated database, but the challenge is ensuring that
         the PII is secure. In addition, monitoring the distribution and associated
         level of consent for each biospecimen can be difficult. Furthermore,
         repositories need emergency alarms and, to safeguard the biospecimens in
         the event of a power failure, backup power systems. Purchasing and
         maintaining these systems can be costly, and such costs are borne more
         easily by institutions than by individual PIs.
         Third, the rapid pace of change in biospecimen research and the slower
         pace of regulatory and policy changes can create uncertainty. One IRB
         chairperson captured this uncertainty when he told us, “We are left to
         apply generic regulatory standards to a very specific and often confusing
         type of research, which can be difficult.” Among the 32 IRB chairpersons
         who responded to our survey, 8 cited a lack of clarity in Federal
         regulations as a challenge in overseeing research that includes collecting
         biospecimens. On the other hand, 55 of 60 PIs responding to our survey
         stated that regulations clearly articulate what is expected of them as
         researchers.




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   19
         CONCLUSION AND RECOMMENDATION
         As the field of biospecimen research advances, researchers are using the
         existing and familiar human subjects protection system to inform human
         subjects about risks. Overall, our evaluation found that informed consent
         documents met the basic requirements for human subject protections; in
         addition, IRBs met basic requirements for membership, initial review, and
         continuing review.
         The majority of informed consent documents addressed the informational
         risks of biospecimen research. These include breaches of confidentiality
         and learning about potentially sensitive results from genetic research. The
         majority of informed consent documents also gave subjects some control
         over how their information will be used in future research.
         Researchers and IRBs involved in biospecimen research are trying to
         address challenges regarding how much information to share with
         potential subjects, how to store and share biospecimens, and how to deal
         with a regulatory system that progresses at a slower pace than scientific
         research.
         Because the field is in flux and the regulatory system moves slowly, the
         research community has much discretion in determining how to address
         these challenges. The Department is also working to address challenges
         with human subjects research protections, having issued an advance notice
         of proposed rulemaking in July 2011.
         In 2012, the Presidential Commission on the Study of Bioethical Issues
         released a report that raised concerns about privacy, the potential misuse
         of information, and unanticipated results reported to subjects from future
         research. More recently, in January 2013, that Commission announced
         that it would examine what patients and participants are told by health care
         professionals not only after a procedure or a test is performed, but also
         before, as part of the informed consent process.
         Determining how to communicate informational risks to human subjects
         will be a challenge, but doing so effectively will be an important
         contribution to scientific advancement. To facilitate this process, we
         recommend that OHRP:
         Provide IRB members and investigators with a forum for
         discussing informational risks to human subjects
         Federal regulations require that informed consent documents include a
         statement of the foreseeable risks arising from the study. Historically,
         human subjects enrolled in clinical research have been exposed primarily
         to physical risks, such as an adverse reaction to an experimental drug.  

Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   20
         More recently, researchers’ ability to collect and store information from
         biospecimens has raised concerns about informational risks that may arise
         from clinical research. These risks, such as a breach of privacy, are
         magnified because of the long-term electronic storage of the subjects’ PII
         and personal health information, and the potential for biospecimens to be
         used in research not specified—or even envisioned—at the time of their
         initial collection.
         OHRP could help ensure that IRB members and investigators address
         informational risks in biospecimen research by providing them with a
         forum for discussing challenges and best practices related to
         communicating these risks. Considering such risks would help provide
         additional protections to subjects who enroll in studies that would include
         the collection and future use of biospecimens. Possible approaches
         include an online forum, Webinars, an OHRP-sponsored conference, or
         presentations at other scientific meetings.




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   21
         AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
         RESPONSE
         OHRP concurred with our recommendation to provide IRB members and
         researchers with a forum for discussing informational risks to human
         subjects. It highlighted past efforts as well as plans to provide a forum to
         discuss informational risks with relevant stakeholders at upcoming
         regional and national conferences. OHRP also emphasized the
         informational risks present in research for which IRBs have issued waivers
         from the requirement to collect informed consent. Although permitted by
         human subjects regulations, such waivers prevent human subjects from
         being fully advised of those informational risks.




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   22
         APPENDIX A
         Agency Comments




Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   23

          Agency Comments (Continued)




     Page 2 - lns1x:ctor General

      We concur with the OIG Report'~ recommendation that the Onice for Human Research
      l'rotections (OHRP) should provide a forum for IRB members and investigators to ddrcss
      informational risks in biospecirncn research. Indeed. OHRP has already provided such fora on a
      number <>f occasions, and \\ill continue to do so. In March of20ll, the Secretary's Advisory
      Committee on Human Research Protections (SACHRP) held a panel on the topic of returning
      indtvidual results to subj~.-cts, which is or1c elc:ment of the issue . .In October of2011. SACHRP
      submitted recommendation.~ titled FAQs, Terms and Recommendations on informed Consent and
      Research Use of!Jiuspcc/mens. In October of20ll SACHRP also included comments related to
      informed consc;1t and biospecimen research in Its comments on the Advance Notice of Propo <ed
      Rulcmaking of July, 2011 titled lluman !mbjects ReJearc·h Protections< Enhancing Protections
     f or Researclr Subjt~CIJ< and Ruducing Burden. Delay, and Ambigully for lm•estlga/ors. We expect
      that SACHRP will return to this tssuc in the near future. In October of this year, OHRP will
      sponsor a wcbinar titled !Jit,banking When Issues with Tissues Com•• a 'Knocldn' us part of its
      webinar seric.S; these webinars an: recorded and are al so viewable on YouTube aflcr they
      happe n. ;\nd in October the L~su will also be addrcJ.sc<l ru; part of the program of an OI·IRP
      Research Community Forum titled Innovative Strau•gies.· Taking the J'rott~ctiott of Human
     Subje,·to~ to 1/te Nex tl.evel, in Nashville, ·1cnncsscc . We fully expect other future Re$earch
     Community Fora to include this topic . And finally, 0! IRl' staO'working with the platming
     committee-S of tho.: annual meetin&of Public Rcsponsihility in Medicine atld Rcs.:u.re h have
     ensured that this issue: will also be part of the program of this year's meeting in November.
     OHRP will certainly look for other opportunities to advance discu~sion of thi ·topic as well.

     Thank you for the opportunity to comment on the drafl Report. Please feel free to t·ontact me if
     you hav..: any questions.

                                                          /S/
                                                   Howard K. Koh, M.D., 1\l.P.II.




Biospecimen Research : Human Subjects Requirements and Informational Risks (OEI-01-11-00520)               24
         ACKNOWLEDGMENTS
         This report was prepared under the direction of Joyce Greenleaf, Regional 

         Inspector General for Evaluation and Inspections in the Boston regional 

         office, and Deputy Regional Inspectors General Russell Hereford and 

         Kenneth Price. 

         Christopher Galvin served as the team leader for this study, and 

         Elizabeth Havener served as the lead analyst. Central office staff who 

         provided support include Heather Barton, Althea Hosein, Christine Moritz, 

         and Talisha Searcy.





Biospecimen Research: Human Subjects Requirements and Informational Risks (OEI-01-11-00520)   25
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
